TY

C@OCKLE

Legal Brief E-Mail Address:
8 ens contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-1088
DAVID CARSON,
as Parent and Next Friend of O. C., et al.,
Petitioners,

v.
A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly swom, upon my oath state that I did, on the 10th day of September, 2021, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF FOR EDCHOICE AND MAINE POLICY INSTITUTE
AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
LESLIE DAVIS HINER RUSSELL MENYHART
Counsel of Record TAFT STETTINIUS &
EDCHOICE HOLLISTER LLP
111 Monument Circle One Indiana Square
Suite 2650 Suite 3500
Indianapolis, IN 46204 Indianapolis, IN 46204
(317) 681-0745 (317) 713-3500
leslie@edchoice.org rmenyhart@taftlaw.com

Subscribed and sworn to before me this 10th day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

    

Loco Ondiaw-h. Chl

Affiant

 

ae. WOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

 

Notary Public 3
Service List:

Aaron Frey

Attorney General

Sarah Forster

Assistant Attorney General
Counsel of Record

Christopher C. Taub

Chief Deputy Attorney

Office of the Attorney General

6 State House Station

Augusta, ME 04333

Sarah.forster@maine.gov

Christopher.c.taub@maine.gov

(207) 626-8800

Counsel for Respondent A. Pender Makin

Michael Eugene Bindas

Institute for Justice

600 University Street, Suite 1730
Seattle, WA 98101

(206) 957-1300

mbindas@ij.org

Counsel for Petitioners David and Amy Carson, as parents and next friends of
0.C., and Troy and Angela, as parents and next friends of A.N. and R.N.
